                                    NATIONAL SCIENCE FOUNDATION
                                         4201 WILSON BOULEVARD
                                        ARLINGTON, VIRGINIA 22230




            OFFICE OF
        INSPECTOR GENERAL


      MEMORANDUM

      Date:
      To:
_   -..~~_.Thrcugb.;.                                                                     ....   ~   ~-~   . ....   .. ..   .

      From:

      Re:




             We received an allegation that NSF offered the       of the          Division Director,
                        a                  position                    although he applied after the
                        e complainant mentioned that support staff in the division had complained
      that children of lower level employees never receive this type of special consideration. Over
      550            --
                    applied to                              this year. NSF hired      -
                                                                                       of them,    of
      which are                     . The complainant noted that                             faxed an
      application directly to his father's division, and not to the D m R e s o u r c e

      because of its late arrival until
                  who told the
                                        fi
      Management (HRM). The complainant said that HRM did not process his application
                                                          spoke wh ti-
                                    staf ng speci ist to process the paperwor
                                                                                            the


      FINDINGS:

              A review o                     personnel folder and comparison of his credentials to
      other applicants                              were comparable to the others'. Although he
      applied after the closing date, we determined that                         after the closing
      date and also received and accepted positions                 These            do not have
      relatives working at NSF.

             We found no evidence indicating different hiring considerations between children of
      higher and lower level NSF employees.

            This issue was also raised to ~ r . u r i a nDirector's
                                                               ~        Meeting on June 12, 1996,
      and ~ r . u ~ ~ e sthat t ethed topic be put on the agenda for the next meeting.

              We have found no evidence to warrant further investigation into this matter. This
      case is closed.
